CERTIFICATE OF SERVICE
Case Name:
Case No.

Abrams, Richard Lee v. State of California, et al
20-373

I hereby certify that on September 29, 2020, I electronically filed the following documents with
the Clerk of the Court by using the CM/ECF system:
WAIVER
I certify that all participants in the case are registered CM/ECF users and that service will be
accomplished by the CM/ECF system.
I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on September
29, 2020, at San Francisco, California.

Robert Hallsey
Declarant
SA2019101136
42366955.docx

/s/ Robert Hallsey
Signature

